NO. 20-195
MUCKLESHOOT INDIAN TRIBE
V.
TULALIP TRIBES, ET AL.,
AFFIDAVIT OF SERVICE
I HEREBY CERTIFY that on September 18, 2020, the Nisqually Indian Tribe’s Waiver in the
above-referenced matter was filed with the U.S. Supreme Court and served on the follow via
email:
JAMES M. JANNETTA
Counsel of Record
EMILY HALEY
OFFICE OF THE TRIBAL ATTORNEY
11404 Moorage Way
La Conner, WA 98257
Email: jjannetta@swinomish.nsn.us
Email: ehaley@swinomish.nsn.us
Counsel for the Swinomish
Indian Tribal Community
MASON D. MORISSET
MORRISSETTE, SCHLOSSER,
JOZWIAK AND SOMERVILLE
218 Colman Building,
811 First Ave.
Seattle, WA 98104
Email: m.morisset@msaj.com

LAUREN RASMUSSEN
LAW OFFICES OF
LAUREN RASMUSSEN
1904 3rd Avenue, Suite 1030
Seattle, WA 98101
Email: lauren@rasmussen-law.com
Counsel for the Pt. Gamble &
Jamestown S’Klallam
Indian Tribes
SAMUEL J. STILTNER
LAW OFFICE
3009 Portland Avenue
Tacoma, WA 98404
Email: sam.stiltner@puyalluptribe-nsn.gov
Counsel for the Puyallup
Tribe

Counsel for the Tulalip Tribes
JAMES RITTENHOUSE BELLIS
OFFICE OF SUQUAMISH
TRIBAL ATTORNEY
P.O. Box 498
Suquamish, WA 98392
Email: rbellis@suquamish.nsn.us

Counsel for the Suquamish
Tribe

KEVIN R. LYON
DAVID BABCOCK
LEGAL DEPARTMENT
SQUAXIN ISLAND TRIBE
3711 SE Old Olympic Hwy.
Kamilche, WA 98583
Email: klyon@squaxin.us
Email: dbabock@squaxin.us

Counsel for the Squaxin
Island Tribe

John Ogan
LAW OFFICE OF JOHN W. OGAN
P.O. Box 1192
Sisters, Oregon 97759

David Bruce
SAVITT BRUCE & WILLEY LLP
1425 Fourth Avenue, Suite 800
Seattle, WA 98101-2272
Email: dbruce@sbllp.com

Counsel for the Suquamish
Tribe

Counsel for Swinomish Indian Tribal Community

Pratik A. Shah
Akin Gump Strauss Hauer & Feld LLP
2001 K Street, N.W.
Washington, DC 20006
Email: pshah@akingump.com
Counsel for Muckleshoot Indian Tribe

Robert L. Otsea, II, Chief Counsel
Richard Reich
Ann Tweedy
Laura Weeks
Direct: 253-939-3311
OFFICE OF THE TRIBAL ATTORNEY
Muckleshoot Indian Tribe
39015 - 172nd Avenue, Southeast
Auburn, WA 98002
otsea@muckleshoot.nsn.us
rreich@muckleshoot.nsn.us
ann.tweedy@muckleshoot.nsn.us
laura.weeks@muckleshoot.nsn.us
Counsel for Muckleshoot Indian Tribe

David R. West
Direct: 206-816-1321
Foster Garvey PC
1111 Third Avenue,Suite 3000
Seattle, WA 98101-3299
Email: david.west@foster.com
Counsel for Muckleshoot Indian Tribe

Joseph V. Panesko,
Assistant Attorney General
AGWA - Office of the Washington Attorney
General (Olympia)
P.O. Box 40100
1125 Washington St., SE
Olympia, WA 98504-0100
Email: joe.panesko@atg.wa.gov

Michael S. Grossmann,
Assistant Attorney General
AGWA - Office of the Washington Attorney
General (Olympia)
P.O. Box 40100
1125 Washington St., SE
Olympia, WA 98504-0100
Email: michael.grossmann@atg.wa.gov
Attorney for State of Washington
Earle David Lees, III
Direct: 360-490-8959
Skokomish Indian Tribe
80 N Tribal Center Road
Shelton, WA 98584
Email: elees@skokomish.org
Attorney for Skokomish Indian Tribe

Attorney for State of Washington

Jack Warren Fiander, Esquire, Attorney

Craig J. Dorsay, Esquire, Attorney

TOWTNUK LAW OFFICES, LTD.
Sacred Ground Legal Services, Inc.
97
5808A Summitview Avenue
Yakima, WA 98908
Email: towtnuklaw@msn.com

Attorney for Sauk-Suiattle Indian
Cynthia Cartwright, DIR
LUMMI INDIAN NATION
OFFICE OF THE RESERVATION
ATTORNEY
2665 Kwina Road
Bellingham, WA 98226
Email: cynthiac@lummi-nsn.gov

Lea Ann Easton
Direct: 503-790-9060
DORSAY & EASTON LLP
1737 NE Alberta Street, Suite 208
Portland, OR 97211
Email: craig@dorsayindianlaw.com
Email: leaston@dorsayindianlaw.com
Attorneys for Hoh Indian Tribe
Lauren J. King, Attorney
Foster Pepper PLLC
1111 Third Avenue, Suite 3000
Seattle, WA 98101
Email: lauren.king@foster.com
Attorney for Quileute Indian

Attorney for Lummi Indian Nation

Eric J. Nielsen, Counsel
Nielsen, Broman & Koch PLLC
1908 E. Madison St.
Seattle, WA 98122
Email: nielsene@nwattorney.net
Attorney for Quileute Indian Nation

Scott Owen Mannakee, General Counsel
Stillaguamish Tribe of Indians
Legal Department
P. O. Box 277
3322 236th Street
Arlington, WA 98223
Email: smannakee@stillaguamish.com
Rob Roy Smith, Attorney
Kilpatrick Townsend & Stockton LLP
1420 Fifth Avenue, Suite 3700
Seattle, WA 98101
Email: rrsmith@kilpatricktownsend.com
Attorneys for Stillaguamish Tribe of Indians

Jay Manning, SCOMIS Bar No. 203720

